20-6032

Roberto Barrio
#14535-064
USP - Atwater
P.O.Box 019001
Atwater, CA 95301
1

"V

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

March 23, 2021
Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

No. 20-6032
(D.C. No. 5:00-CR-00025-R~2)
(W.D. Okla.)

ROBERTO BARRIO,
Defendant - Appellant.

ORDER AND JUDGMENT*
Before PHILLIPS, McHUGH, and CARSON, Circuit Judges.
Roberto Barrio is serving a life sentence on a count of possessing with intent to
distribute 50 grams of crack cocaine and five kilograms of cocaine powder. He filed a
pro se motion in the district court for a sentence reduction under the First Step Act of
2018, Pub. L. No. 115-391, 132 Stat. 5194 (“First Step Act”). Barrio argued he is
entitled to a sentence reduction based on statutory amendments to mandatory minimum

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

sentences for crack cocaine offenses. The district court denied the motion. Exercising
jurisdiction under 28 U.S.C. § 1291, we affirm. ■
I. BACKGROUND
A. Statutory Background
Congress enacted the Fair Sentencing Act of 201.0, Pub. L. No. 111-220, 124 Stat.
2372 (“Fair Sentencing Act”), in response to criticism of the disparity between
Congress’s treatment of mandatory sentencing minimums for crack cocaine offenses
compared to powder cocaine offenses. Dorsey v. United States, 567 U.S. 260, 268
(2012). In the Anti-Drug Abuse Act of 1986, Congress set the crack-to-powder
mandatory minimum ratio at 100-to-l, a ratio later deemed unjustified by the Sentencing
Commission and others in the law enforcement community. Dorsey, 567 U.S. at 266-68.
The Fair Sentencing Act reduced the ratio to 18-to-l. Id. at 269. As relevant to this case,
§ 2 of the Fair Sentencing Act increased the amount triggering a mandatory life sentence
from 50 grams of crack cocaine to 280 grams. This change was not made retroactive.
Eight years later, however, the First Step Act directed that the crack cocaine
amendments may be applied retroactively to sentences imposed before the enactment of
the Fair Sentencing Act. See First Step Act, § 404. Section 404(a) of the First Step Act
defines a covered offense” to mean a violation of a federal criminal statute committed
before the enactment of the Fair Sentencing Act and for which the statutory penalties
were modified by section 2 or 3 of the Fair Sentencing Act. If a defendant received a
sentence for a “covered offense,” § 404(b) then authorizes the district court to reduce a
sentence as if sections 2 and 3 of the Fair Sentencing Act of 2010 ... were in effect at
2

Barrio contends the district court’s decision was erroneous. In support, he cites
the Fourth Circuit’s decision in United States v. Gravatt, 953 F.3d 258. Barrio’s reliance
on Gravatt is misplaced. In that case, the issue on appeal was “narrow”: had the
defendant presented a “covered offense” under. § 404(a) of the First Step Act? Id. at 262.
The district court determined the defendant’s violation was not a “covered offense”
because, like Barrio in this case, the object of the defendant’s conspiracy involved 50
grams of crack cocaine andOive kilograms <of powder cocaine. See id. at 264 (“we must
decide whether Gravatt was convicted of a ‘covered offense’ where he was charged
conjunctively with conspiring to distribute both powder cocaine and crack cocaine”). In
reversing the district court, the Fourth Circuit observed:
[W]e see nothing in the text of the [First Step] Act requiring that a
defendant be convicted of a single violation of a federal criminal statute
whose penalties were modified by section 2 or section 3 of the Fair
Sentencing Act.... If Congress intended for the Act not to. apply if a
covered offense was combined with an offense that is riot covered,, it could
haveincludedthat language.
Id. Accordingly, the Fourth Circuit held that the defendant had presented a “covered
offense” and remanded for the district court to consider the defendant’s motion on the

■i

merits. Id. Here, the district court correctly found Barrio’s conspiracy violation to be a
“covered offense,” aniT^nfqnJ^px^sjfe

This was .perfectly

A
S;

consistent'with Ihe analy sis in Gravatt.

to “not less than 25 years” for defendants who, like Barrio, had two or more prior
convictions for a felony drug offense. But Congress did not make this amendment
retroactive. Motions brought under § 404 of the First Step Act concern only the
amendments to penalties for possession of crack cocaine. Section 401(a)(2) affords no
relief to Barrio.

sf 6

X

h

/

III. CONCLUSION
We affirm the district court’s judgment for the foregoing reasons. We deny his
renewed motion to proceed in forma pauperis as moot because the district court already
authorized him to proceed on appeal in forma pauperis.
Entered for the Court
Joel M. Carson III
'Circuit-Judge

7

Roberto Barrio
#14535-064
USP-ATWATER
United States Penitentiary
P O Box 019001
Atwater, CA 95301

Case 5:00-cr-00025-R Document 1078 Filed 01/13/20 Page lot 6

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
UNITED STATES OF AMERICA,

)
)
)

Plaintiff,

)
)

y.

)

Case No. CR-00-25-R

)

ROBERTO BARRIO,

)
)

Defendant.

)

ORDER
Before the Court is the Motion for Reduced Sentence, Doc. No. 1062, the Motion
for Compassionate Release, Doc. No. 1071, and the Motion for Leave to Supplement
Authority, Doc. No. 1076, filed by Defendant Barrio, pro se, pursuant to the First Step Act
of 2018, Pub. L. No. 115-391. Plaintiff has responded, and Defendant has replied. Upon
review of the parties’ submissions, the Court denies Defendant’s Motion for Reduced
Sentence and orders further briefing on Defendant’s Motion for Compassionate Release.
Defendant’s Motion for Leave to Supplement Authority is denied as moot.
I.

Background

In July 2000, a jury convicted Defendant Barrio of one count of conspiracy to
possess with intent to distribute 5 kilograms or more of powder cocaine, 50 grams or more
of cocaine base, and 100 grams or more of PCP in violation of 21 U.S.C. §§ 846 and
841(a)(1) and (b)(1)(A); four counts of interstate travel in aid of racketeering, in violation
of 18 U.S.C. § 1952(a)(3); and two counts of use of a telephone to facilitate the distribution
of cocaine, in violation of 21 U.S.C. § 843. The Court sentenced Defendant Barrio to
1

Case 5:00-cr-00025-R Document 1078 Filed 01/13/20 Page 2 of 6

mandatory life imprisonment on the conspiracy count, 60 months on each of the interstate
travel counts, and 48 months on both telephone counts with the lesser counts to be served
concurrently with the life sentence on the conspiracy count. Doc. No. 581. The Tenth
Circuit affirmed his conviction and sentence. United States v. Barrio, 41 Fed. Appx. 169
(10th Cir. 2012), cert, denied, 537 U.S. 939 (2002),
Thereafter, Defendant Barrio moved to vacate his conviction pursuant to 28 U.S.C.
§ 2255. Doc. Nos. 898, 903. This Court denied Defendant’s claims. Doc. Nos. 900, 904.
He then filed another § 2255 petition, Doc. No. 1038, in addition to a motion to reduce his
sentence, Doc. No. 1039. The Court denied both. Doc. Nos. 1040, 1042. Defendant Barrio
then requested authorization to file a second § 2255 petition from the Tenth Circuit, which
was denied, Doc. Nos. 1052, 1054. Now, Mr. Barrio seeks a sentence reduction based on
section 404(b) of the First Step Act of 2018 and any retroactive guideline amendments
passed since he was sentenced. Doc. No. 1062. He also seeks compassionate release
pursuant to the Act, Doc. No. 1071, and leave to supplement his motion for reduced
sentence filed pursuant to section 404(b) of the Act, Doc. No. 1076.
II.

Motion for Reduced Sentence

In his first motion, Defendant Barrio seeks relief in the form of a reduction in his
sentence under Section 404 of the First Step Act of 2018 and U.S.S.G. Amendments 706,
711, 750, and 782. A district court has limited authority to modify a sentence. The court’s
limited authority to reduce Defendant’s sentence under the First Step Act is provided by
18 U.S.C. § 3582(c)(1)(B), which states: “the court may modify an imposed term of
imprisonment to the extent otherwise expressly permitted by statute . . . .” Section 404(b)
2

Case 5:00-cr-00025-R Document 1078 Filed 01/13/20 Page 3 of 6

of the First Step Act then provides: “A court that imposed sentence for a covered offense
may . . . impose a reduced sentence as if sections 2 and 3 of the Fair Sentencing Act of
2010 ... were in effect at the time the covered offense was committed.” Pub. L. No. 115391 § 404(b). Section 2 of the Fair Sentencing Act of 2010 changed the amounts of cocaine
base needed to trigger certain statutory minimum and maximum sentences. In particular,
section 2 increased the amount of cocaine base required to trigger a statutory punishment
often years to life imprisonment from 50 to 280 grams, and the amount required to trigger
a range of five to forty years’ imprisonment from 5 to 28 grams. SeeTub. L. 111-220 § 2.
Section 3 eliminated the statutory mandatory minimum sentence for simple possession of
cocaine base. Id. at § 3.
A defendant is only eligible for relief if applying sections 2 or 3 of the Fair
Sentencing Act of 2010 results in a different statutory range of punishment than the one
applied at the defendant’s sentencing. If a district court determines that a defendant is
eligible for relief under the First Step Act, the district court may exercise its discretion to
reduce the defendant’s sentence. The Court is not required to reduce any sentence pursuant
to the First Step Act. Pub. L. 115-391 § 404(c).
Here, there is no debate concerning whether Defendant Barrio’s conviction is a
covered offense under the First Step Act. According to the Act, a covered offense means
a violation of a Federal criminal statute committed before August 3,2010. Pub. L. No. 115391, § 404(a). Defendant’s offense occurred between late 1998 and January 2000—before
August 3, 2010—and is thus a covered offense.

3

Case 5:00-cr-00025-R Document 1078 Filed 01/13/20 Page 4 of 6

Defendant Barrio argues then that his sentence should be reduced because his term
of life imprisonment was based on the jury’s conviction in count one of conspiracy to
possess with intent to distribute 50 grams or more of cocaine base—a quantity and
substance which after the Fair Sentencing Act of 2010 no longer triggers a statutory penalty
of life imprisonment. See 21 U.S.C. § 841(b)(l)(A)(iii); see also Pub. L. 111-220 § 2. But
in-Jh.at'Count, Defendant was also convicted of conspiracy to possess with intent to
distribute 5 kilograms or more of powder cocaine—a quantity and substance that triggers
a maximum of life imprisonment not altered by the Fair Sentencing Act of 2010. See 21
U.S.C. § 841(b)(l)(A)(ii)(II). Therefore, the range of Defendant Barrio’s statutory penalty
was not controlled by the 50 grams or more of cocaine base charged in the first count. Nor,
was his_guideline calculation, or his sentence..In fact, prior to trial, the Government filed a
21 U.S.C. § 851 Information identifying Defendant Barrio’s three California convictions
for felony drug offenses, which subjected him to an enhanced mandatory minimum and
maximum of life imprisonment under 21 U.S.C. § 841(b)(1)(A)—a provision unaltered by
section 2 or 3 of the Fair Sentencing Act of 2010.1
At bottom, nothing in the Fair Sentencing Act of 2010 reduces the statutory sentence
to which Defendant Barrio was exposed. Consequently, retroactive application of the Fair
Sentencing Act of 2010 pursuant to the First Step Act of 2018 cannot afford him any relief.
See United States v. Westbrook, No. CR 3:09-714-2-CMC, 2019 WL 1542571. at *3
(D.S.C. Apr. 9,2019), off’d, 775 F. App'x 762 (4th Cir. 2019) (finding defendant ineligible
To be sure, 21 U.S.C. § 841(b)(1)(A) was altered by the First Step Act of 2018, which reduced this enhanced penalty
for two or more prior convictions to a maximum punishment of “not less than 25 years.” See Pub. L. 115-391, Title
IV § 401 (a)(2), Dec. 21,2018. But, this alteration is not retroactive and affords no relief to Defendant.

4

Case 5:00-cr-00025-R Document 1078 Filed 01/13/20 Page 5 of 6

for relief under the First Step Act of 2018 where the quantity of powder cocaine by itself
required the statutory penalty originally applied). Defendant Barrio’s motion pursuant to
the Act is therefore denied, as is his motion for leave to supplement authority.
III.

Motion for Compassionate Release

In his second motion, Defendant Barrio requests this Court grant him compassionate
release pursuant to 18 U.S.C. 3582(c)(1)(A). Under this provision, defendants may seek a
modification of their term of imprisonment on their own, rather than relying on the Bureau
of Prisons. See 18 U.S.C. § 3582(c)(1)(A). But a defendant may seek this relief only “after
[he] has fully exhausted all administrative rights to appeal a failure of the Bureau of Prisons
to bring a motion on the defendant’s behalf or the lapse of 30 days from the receipt of such
a request by the warden of the defendant’s facility, whichever is earlier ....” Id.
Here, it is unclear whether Defendant Barrio has fully exhausted his administrative
remedies. The Court hereby orders the Government to respond to Defendant’s reply to the
Government’s Opposition for Compassionate Release, Doc. No. 1073. The Government is
ordered to focus their response on the question of whether Defendant Barrio has exhausted
his administrative remedies. The Government is further ordered to provide to the Court
documentation supporting their argument. The Government’s response shall be filed no
later than February 3, 2020.
IV.

Conclusion

For the reasons set forth herein, Defendant Barrio’s Motion for Reduced Sentence
is denied. His Motion for Leave to Supplement Authority is therefore denied as moot. As

5

Case 5:00-cr-00025-R Document 1078 Filed 01/13/20 Page 6 of 6

to Defendant’s Motion for Compassionate Release, the Court does not make any judgement
at this time.
IT IS SO ORDERED this 13th day of January 2020.
w

DAVID L. RUSSELL
UNITED STATES DISTRICT JUDGE

6

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

April 12, 2021
Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

No. 20-6032
(D.C. No. 5:00-CR-00025-R-2)
(W.D. Okla.)

ROBERTO BARRIO,
Defendant - Appellant.

ORDER
Before PHILLIPS, McHUGH, and CARSON, Circuit Judges.
Appellant's petition for rehearing is denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

EXHVbYT

